No. 20-1293

 

 

IN THE

Supreme Court of the United States

ABBVIE INC., ABBOTT LABORATORIES, UNIMED
PHARMACEUTICALS LLC, AND BESINS HEALTHCARE,
INC.,

Petitioners,
v.

FEDERAL TRADE COMMISSION,
Respondent.

On Petition For A Writ Of Certiorari To The
United States Court Of Appeals For The Third
Circuit

BRIEF OF THE CHAMBER OF COMMERCE OF
THE UNITED STATES OF AMERICA AS
AMICUS CURIAE IN SUPPORT OF
PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,930 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 19, 2021.

AL

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.

  
